,f-v,

P

Klo:

p _ £7X Q
T'1

>315

W Q

Supreme Court, U.S.
FILED

AUG 1 1 2020
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATE 5

SETH JOHN WILCOX - PETITIONER
VS.

'STATE OF WASHINGTON - RESPONDENT

PETITION FOR AN EXTRAORDINARY WRIT
OF

MANDAMUS AND/OR
PROHIBITION

PRO 5E

■SE-TH. JOHN WILCOX
#408735 BB571L
COYOTE RIDGE CORRECTION
' ' CENTER
P.O. BOX 76? ,
CONNELL,WA 773P6

Wilcox v. Washi'ng+on

QUESTIONS

PRESENTED

I- CAN A STATE CR'EATE AND ENFORCE

CONTRARY. LAW,THAT DEPRIVES ITS
CITIZENSOF THEIR FUNDAMENTAL
. RIGHTS, GUARANTEED BVTHE
UNITED STATES-CONSTITUTION?
-

f‘

-

IP DOES PROSECUTING AN INDIVIDUAL,
FOR A CAPITAL OR .INFAMOUS CRIME, BV
INFORMATION ALONE WITHOUT A
•A

PRELIMINARY HEARING, PROVIDE A
GREATER VALUE OF FUNDAMENTAL

Rights iothat individual, rather
THAN THOSE GUARANTEED BV A
GRAND JURY PROCEEDING ?

Wilcox v. Washington

LIST or PARTIES
All parl\es do nof appear in the. caption of the case, on the cover page.
A list of all the parties subject to the challenge of State Law involved,
are as Pollou>5t
• Governor Jcaj Inslee
- Attorney General -for Washington State

RELATED CASES

Ranoos v* Louisiana
# i8-5?a4
139 Set. 1518,503 LEd c2d 563:^01? U.S. LEXIS 1835

Wilcox v. Washington

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

<3.

CONSTITUTIONAL PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4
4

1. (QueWion 1)
A. Supremacy Clause of the United States Constitution and the weaning
of contrary lauo
B. Washington Supreme Court opinion of contrary lauu

(o

7

EL. (Question £)
Fundamental rights and the meaning thereof
v

->

4

C1

B. History of the, Grand Jury and evaluating the ruling of
Hurtado v. California
C. Differences between Federal and State Constitutional provisions
and the evaluation of fundamental rights

7
8
J3

REASONS FOR GRANTING THIS PETITION

30

CONCLUSION

33

.Index

of appendices

Appendix A

A1-A6
HurPxdo V. People o( Coil < torn i a

ae> L£D333, 110 US. 516, 534-38 (1884)

Bl-B^

Appendix B •
Declaration o-f Explanation to
Relevance O-f Unis Petition

Wi(cox v. Washington

TABLE. OF AUTHORITIES
Unit-ed States Constitution
•Article HI section 3.
• Article 21 clause 3.

a ,3o
4

•2 Amendment-

1,3,13-38,30

•31 Amendment

I3-I*f, 33,38

»IX Amendment

ao-ai

• Yl\T Amendment

1,3,14 -31 ,37-38,30-31

U.S. Statute
• U5C 18 § 555

a4

Washington Side. Constitution
• Article I section 35
•Article I section S6

3,4,SI ,54-36,30
3,4,31,34-36,30

Washington Statute
* RCW 10.37.105

35

Federal Cases
• Apodaca v. Oregon
4oo u.S. 404
• Duncan v. Louisiana
341 U.S. 145,144,88 Set. 1444,30 LED ad 441 (R68)
• Herbert v. Louisiana
37a U.S. 313,316, 71 LED 370,373,48 ALR 1103,47 Set. 103

33

36-38

aa

Wilcox v. Washing+on
1,8-16,30 ,33-33,34-30

* Hurtado v. People of California
38 LED 333, MO U.S. a* 516,531-33,534-35 , 544-45

9,3 9

• Jones v. Robbins
8 Gray 334

23

* Powell v. Alabama '

7 7 LED IS8,387 U.S. a+ 67

• Prune Vard Shopping C+r. \l. Robb'ms
4M7 U.S.74,81,100 Set. 3035,64 LED 741 (1480)

6

33,30

* Ramos v. Louisiana

•418-5434, 134 Set- 1318,303 LEd 3d 563: 3014 U.S. LEXIS 1833 (aoiq)

S-fafe Cases
6,33-34

»Sfale v. (qunujall
\0Q> Wn ad 54,59, 730 P 3d 808 (i486)

37

• Stale v. Sieges
168 Wn 2d 376 (3004)

Other
♦ 4 Bl. Com 306,310, 343,344-50

10-13,31

/a

• Hal. Hist. PC ch. 201
‘Jacobs LDit Title info 4 Broom Com LauuS
England 396 Story Const. Sec. 1784
• Magna Charla 39 fh Ch.

13

8-10,34

• Pleas of the Crouun BP. Cl ch. 36

13

n

Wilcox v. Washington

OPINIONS BELOW

Hurfado v. People of California
<38 LED 333, 110 U.S. of 516,538
(1884)

In fhe opinion of fhe courf, if was held fhaf because bofh,fhe 5*
and 14“ Amend me nf s, conlain similar passages of due process, and
due fo fhe fad- fhaf fhe 5- Amendmenf has express declarafions fo
perpefuafe fhe instihiion of a Grand Jury? yef fhe 14th- Amendment
doesn'f, fhan fhe Grand Jury musf only bind fo federal courfs. Xf was
concluded, " We are unable fo say fhaf fbe subsfjfufion for a presenfmmf or
‘/ndicfmenf by a Grand Jury Qf fhe proceeding by inform all on... is nof due
process of law,“ and fherefore fhe courf ruled fhaf Sfafes could subsfifufe
prosecufions of fblony crimes by indicfmenf of a Grand Jury wlfh informafion.

1

Wilcox v. Washington

jurisdiction)

ARTICLE m SECTION 3 CLAUSE 5.
OF THE
UNITED STATES CONSTITUTION

\\

IN.ALL CASES AFFECTING AMBASSADORS,

OTHER
PUBLIC MINISTERS AND CONSULS, AND
•>
THOSE IN WHICH A STATE SHALL BE A PARTV,
THE SUPREME COURT SHALL HAVE ORIGINAL
jurisdiction/

a

Wilcox V. Washington

constitutional provisions involved
UNITED STATES CONSTITUTION

* X Amendment
No person shall beh&td to answer for a'capital,or otherwise in-famous crime,
unless on a presentment or indictment of a Cjrand Jury,except in cases arising in
the land ormava! forces, or in the Militia, when in actual service in time of War
*

'

or public dangernor shall ang person be subject for the same offense to be
tulice put in jeopardy of life or I/mb,' nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, li'berly^or property,
without due process of law \ nor shall private property be taken for public use without
just compensation.
* XJSL Amendment ^ nor shall any Stale deprive any person of life, liberty, or property, without due process of latu
WASHINGTON STATE CONSTITUTION
* Article I section 35
^ Offenses heretofore repaired fo be prosecuted by indictment may be prosecuted by
information,or by indictment, as shall be prescribed by law.y/
•Article I section 36
^ No Grand Jury shall be drawn or summoned in any county •> except the
superior judge thereof shall order. "
3

Wilcox v. Washington

STATEMENT OF THE CASE
I- CAN A STATE CREATE AND ENFORCE
CONTRARY LAW THAT DEPRIVES ITS
CITIZENS OF THEIR FUNDAMENTAL
rights,Guaranteed by the
UNITED STATES CONSTITUTION?
A. Supremacy Clause of the Unthd States Constitution and Me weaning of contrary /flu.i
Petitioner respectfully Submits this Extraordinary Writ fo the United States Supreme
Court, challenging Arficle I Section 35 and Article Section36 of the Washi/Wan
Sf-ale Cons-Hjufion.
The. Supremacy Clause of Arficle H Clause SL of The United Sfa+es Consiifution
Siates fhaf ' This CanS+ifufion, and The Laws of The Unifed 5+afes which shall be
made in pursuance (hereof ,* and ail Treafies made, or uuhich shall be made, under ihe
aufhorify of The Unifed Sfafes, shall be The Supreme Lauu of Hie Land, and
the judges in every tSfafe shall be bound -hereby, any Thing in ihe. Consfiiuiion or
Laws of any State fo 4be confrary noiuuithsfandwg.." Tf is very clear by ihe
usus Ioguendi of This passage, ihai ihe Framers of The United Siates
Consfifufion, intended Thai The laws of Th/s yreai doefrine were fo be ihe
foundation in which all Sfafe laws derive from. Proof of this is in ihe
careful choice of words in which fhe Framers scribed. The key word

4

Wilcox v. Washi ngton
written in this clause is ''shall", because ihis word as defined in

Kerr iam - Webster Didionavy» is an '''auxi llary ho express a command/
When the framers wrote, -that

The Consfidofion and all ids Laws Shall

be the Supreme Law of the Land, and the Judges in every Si-ate shall be
bound -thereby,/; Their intenfion ujas that the Consfifufion and all its
laws are to be Superior to those created by states and -that the guarantees
written within are not to be infringed upon by any state. This interpretation
is supported by the last line of the clause which reads xv any Thing in the
Constitution or laws of any State to the contrary not with standing."
Therefore all contrary state law to that which is ujritten in the United
Constitution,shall be deemed null and void as the Supremacy Clause clearly

states.
If the United Ttates Constitution is the Supreme Lauu of the Land and
a State cannot create contrary lauji as ujritten in the Supremacy Clause,
it must'be then determined cuhat contrary law is. Contrary as defined by
Merriam - Webster is 1.) 'v opposite in nature or position

<2.) ' counter,

opposed ", whereas law is defined as " a rule of conductor action established
by custom or laid down and enforced by a governing authority. " In composition

5

Wilcox v. Washing+on
of these definitions one would concede that contrary laio should be defined
as such " a rule of conduct or action in opposition to that established by
custom or laid douon and enforced by another governing agency l ^ The framers
of the United States Constitution implemented the Supremacy Clause fo create
boundaries that States could not in filtrate, to protect those guarantees and
fundamental rights established for its citizens.
8. Washington State Supreme Court opinion of contrary law
Washington State Supreme Court notes that " The Supreme Court application
of the United States Constitution establishes a -floor bel010, which state courts
cannot go, to protect individual fundamental rights. However states of Course
can raise the ceiling to afford greater protections under theirouun constitutions.
Washington retains the "sovereign right to adopt in its ocon constitution,
individual liberties more expansive than fhose conferred by the Federal Constitution/7
Stale V. Gunuua// !06> Wn 3d 54,59, 730 P3d 808 C/98&)(quoting Prune
Yard Shopping CP v. tfabbms 447 dS. 74,8/, fOO Set 3035, OtlCd 741 (/?8o))
In Gun wall, -the opinion of Washington State Supreme Court clarifies that a
State cannot create. laous that deprive its citizens of their-fundamental rights, as it
can only adopt laws into its own constitution that provide Its citizens such rights
" more expansive than those conferred by the federal Conslifution. " Any State

(o

Wilcox v. Washington
laio depriving its citizens of their fundamental rights, guaranteed bg the
United States Constitution, is indisputably contrary lauj.
IL- DOES PROSECUTING AN INDIVIDUAL
FOR A CAPITAL OR INFAMOUS CRIME
BY INFORMATION ALONE WITROUT A
PRELIMINARY HEARING, PROVIDE
A GREATER VALUE OF FUNDAMENTAL
RIGHTO TO THAT INDIVIDUAL, RATHER THAN THOSE GUARANTEED
BY A GRAND JURY PROCEEDING ?

A. Fundamental Rights and the meaning thereof
Previously, it has been concluded that a State cannot create or enforce.
• contrary law and one must discern that confrarg /aw is unequivocally any lauu
that deprives individuals of their fundamental rights guaranteed by the United
States Constitution. ttowever, Fundamental Righi must be defined to further
evaluate the question presented above.
Fundamental, according to Merriam-Webster Dictionary, is defined as 1.)
'serving as an origin.* Primary* 3.)" basic, essential *, uihereas Right is defined as
1.)" something (as pouueror privilege) to which one has a just or lawful claim/x
3.) "just action or decision.* the cause of justice. " One. may perceive that fundamental
right must be defined as " something essential (as pouueror privilege) to which one
7

Wilcox v. Washingdon
has a jush or lawful clairn derived from a primary legal acfion or decision." Based on
fhiS de.f\niVion, a fundamental right is an essen+ial guaranfeeor privilege conferred h
national cifiz.ens ensued upon -the. rnlif/cation of Hie Federal Constitution and ih
Bill of Rights.
B. History of -fine Qrand Jurg and evaluating {-he ruling of t/uriado v. California
The preliminary proceeding of a (qnxnd Jury has been 0, fundana-enta.1 instrument of

Anglo-American jurisprudence for over 600 gears, indoctrinated into English Cowman
Lauj, after the Magna Charfa was draf-ted in Iff 15 •

lo this day* federal courts still

use -fhis institution as the primary preliminary mode of proceeding in criminal adjudications.
Up until fhe Supreme Courf ruling in Hurtado V. California (isaO * all Terri {ones and

states., as free governments, still used this established modi of preliminary proceeding.
Since -then , many states have fully disposed of preliminary hearings, including the

Qrand Jury , to expedite Criminal adjudical ions, as did fhe State of Wash i nylon upon
ratification of its Consfifu+ion in l&tl.
u IT is maintained on behalf of fhe plaintiff in error that the phrase 'due process of
lauu ‘ is equivalent !o the ' lauu of the land 'as found in the S'?*1 chapter of the Mag na
Charfal that by immemorial usage , if has acquired a fixed definite and technical
meaning, that it refers to and includes , not only the general principles of public liberty and

8

Wilcox v. Washi'ng+on
private right i which lie at the foundation of all tree governments, but the very institutions,
uohich venerable toy time and custom, have been tried by experience, and -found fit and
necessary for the preservation of those principles, and which having been the birthright
and inheritance af every English subject, Crossed the Atlantic with the Colonists and were
transplanted and established in the fundamental law of the >5fate ,+hat having been
originally introduced in to the Constitution of the Untied States as a limitation upon

the powers of the government, brought info being by that instrument, if has now been
added as an additional security to the individual again si oppression by the States themselves

that One of these institutions is that of a tqrand Jury, and indictment or presentment, ty which

against the accused in cases of alleged felonies, is an essential pari of due process of law»in order
that he may not be harassed and destroyed by prosecutions found only upon private malice
or popular fury.

UuUotcfo K Peop/t of Cq/'/offi/ct U& f£D <333., f/O US ab 5SU

" The. view is certainly supported by the authority of the. great name of Chief Justice
6baw and of the Court in uahich hepresic/ec/, uohich in Jones v. 'Bobbins 3 Oray 339,

decided that the 13*' Article of tbe Bill of Rights of Massachusetts, & tnxnscripl of the

Magna Charta in this respect, made an indictment or presentment of a Qrand Jury essential
to the validity of a conviction in cases of prosecutions for felonies. In delivering -Hie opinion of the
court in that case Merrick J« alone in dissent, the chief justice said;NS The right of individual

7

Wilcox v. Washing-fon
• cifiten to be secure from on open and public accusation of crime, and from the -trouble-,expense
and anxiety of a public -trial before -probable cause is established by the presentment and
indictment of a (/and "Jury, in cases of high offenses, isjustly regarded as one of the
securities to the Innocent against hasty , malicious and oppressive public prosecutions, and
as one of the ancient immunities and privileges of English liberty ... 1+ having been stated "
He continued " by Lord Coke, that by the N law of the land f was intended a due Coarse
of proceeding according to those established rules and practices of -the courts of common
law, it may perhaps, be suggested that fhis might include other modes of proceeding,
sanctioned by the common laiu, the most familiar, of which are, by informations of
various kinds, by the officers of the Crouun in the name of the King. But, in reply to this,
it may be said that Lord Cofehimself explains his ouun meaning by saving x law of the land/
as expressed in the Magna Charia, was intended 'due process of lau/, that is by
presentment and indicfmentofgooc/and laujful men. Further ft is stated, on the authority
of Blackstone, that informations of every kind are confined by the constitutional law k>
misdemeanors only/7 H B/. Com 3/0 "Referring again h the passage from Lord Coke,
He says P. 3d3 'v This may not be. conclusive, but being a construction adopted by a writer
of high authority before the emigration of our ancestors, it has a tendency to shoou hoiv
it was then understood./J Ui/r/ado f/O t/.S. a/ 533
10

Wilcox v. Washington
vv UJe are unable fo say that the substitution -for a presenfme.nl or indictment by a Grand Jury
of the proceeding by information, after examination and committment by a magistrate,
certifying the probable guilt of the defendant, u/ifh the hghf on his part fo the aid of
counsel, and to cross-examine the uuitnesses produced for the prosecution, is not due.
process of law.u Hurfacfo HO U-O. a/ S38
Blackstom says 'v But to final a bill there must be at least l^jufers agree, for so
tender is -Hie. lauu of England of the lives of subjects, that no man can lx convicted al the
suit of the king, of any capital case, unless by a unanimous voice of 3M of his equals
and neighbors, that is by & of leas! of fht Grand Jury, in the first place, assenting b
the accusation, and afterward s by the whole petit jury, of U or more , finding him
guilty upon his trial." H B/ 30J> '' The founders of English Common Lauu have,
ujifh excellent forecast» contrived that no man shall be called to ansurer fot-he King
for any capital crime, unless upon preemptory accusation of lot or more of his fellow
Subjects, the Grand Jury, and that the truth of any accusation, whether preferred in the
shape of md/dmeni, info or appeal, should afterwards be Confirmed by the unanimous
suffrage of IS. of his equals and neighbors, indifferenllg chosen and superior to all
Suspicion. So fhat the liberties of England cannot but subsist so long as the palladium remains
sacred and inviolate, not only -Prom all open attacks (ufoich none uuill be so hardy as to make)

Wilcox v. Washington
but also from ail secret mechanisms uuhich may sa.pand undermine H, by introducing
neuu and arbitrary methods of trials, by justices of peace , commissioners of the revenue,
and courts of conscience, and houjever convenient these may appear at first (as doubt
less all arbitrary powers, weil executed, are most convenient) yet let if be again remembered
that delays and little i neon v leniences in the forms of justice, are the price, -that all free nations
must pay for liberty in more substantial matters} -that -these inroads upon the sacred bulwark
of the nation are fundamentally opposite to the spihtaf -the Constitution, and -that, though
begun jn trifles, the precedent may gradually increase and spread to the utter disuse of
jurors in Questions of the most momentous concerns.

V BL CotT) 3Vci'50

Hurtado I/O U.S. cd 544-45
xx Hawkins in his Pleas of the Crouun Bfr <3. Ch. J(pf after saying that if is
everyday practice to proceed by information in certain coses says, v' but X do nat find ft
anyouhere holden that such an information will lie for any capital crime, or -for misprison
of treason." Bacon in his abridgement lays it doom,vv But though as my Lord Hale
observes, in all criminal cases, -the most regular safe way, and most consonar>f to the
statute of the Magna Charta is by presentment or indictment of ItX suuorn men,
crimes inferior to capital or infamous proceedings may be information."Title Information
A see also Hal* Hist. PC ch. <301 ,* Jacobs L Die Vile info 4 Broom Com.Lauos
England 3% Story Const. 5ec. /784. * X omit further citations of authorities,

19-

Wi/cox v. Washincj-l-on
which are. numerous to prove that according k> Ahe settled usage and modes of proceeding'
existing under-Mae comon and -statute law of England at the settlement of this countrg,
information in capital cases was not consistent with Ahe ' law of the land7 or with
due processo-f lauu." fdurtado //O (/.S* at 5M5(CT- Marian disse filing )
TA is quite clear that The paragon of usage of Ahe insiiiiAjons and modes gA proceedings
e-S-fublished by English Common Law, which venerable by time and custom, have been
fried toy experience and -found necessary Ao preserve Ahose principles that safeguard the
inherent rights of ifs citizens deemed fundamental Ao ensure liberty and justice in AngloAmerican jurisprudence. The Framers of the Bill of Rights understood Ahaf j'ust as Ahe trial
l

i

by jury right is necessary, which ujols written in Ahe 6* Amendment of The United Stales
x

Constitution, Ahe preliminary proceeding of a Grand Jury is equally -fundamental, as not
only was it scribed in an enAirely differenA amendment, /A was c/rafAed in Ahe 5to

*

Amendment, the one before AhaA, securing the right Ao a fair and impartial trial by jurg.
It is by no mistakethat the Framers constructed the Bill of Rights as they did, every word
. *

*

•

was carefully wrfAAen and not only cuas if jnAenAional that they separated these modes
of proceedings, as one could not replace the other, it was also sequential, as Ahe
Framers understood Ahe utmost importance ofa preliminary proceeding and the
fundamental rights secured by Ahe procedure of such institutions as a Grand CJurg f
13

Wilcox v. Washington
hence why everything written in the 5® Amendment secures the rights to individuals
pertaining to preliminary proceedings, uuhereas the 6^ Amendment defines the rights
guaranteed to individuals that pertain to trial proceedings.
The Grand Jury Clause of the 5^ Amendment of the United States ConsHfiAion reads
as such " No person shall be held to answer fora capital, or otherwise infamous crime,
unless upon a presentment or indictment of a Grand Jury. " Once again one must closely
examine the choice of words written in this provision and similarly to that of the
Supremacy Clause, the key word that appears is " ShallAs previously defined,
shall 'is an'auxiliary ho express a command,/; therefore the Framers intended this
provision to be absolute and if their intentions were any different, shall could have
been substituted with a word such as " may “'cubjch the meaning would then be mdiffnrk
and open for options for substitution of the preliminary proceeding of a Qrand Jury *
however that is not houu if was written and one must keep in mind that the Bill of
Rights and ail of ih provisions , were concisely drafted by some of the best scholars
during that period of time*
In the case of Huriado-v. People of California. 33 LED 333, HO(J.S. a! J53Q,
the opinion of the court was held that 'v We are unable to say that the substitution
tor a presentment or indictment by a Qrand Jury of the proceeding by information... is not due process

14

Wilcox v. Washington
of Iaw. H In the same respect, one could fairly argue that the Court ■ was equally unable to
prove that the substitution fora Grand Jury proceeding, otter examination and
committment of a magistrate, by information, Is indeed due process of law as well.
The rationale of this decision was based on the anal y rat ion of the similarities in the
usus loguendi of the 5th and If" Amendments. It is expressed by the court that because
both amendments contain the phrase " nor be deprived of life, liberty, or property, ouH-Wf
the due process of lauu/^and respectively the

Amendment hinds the same due process

fo the stales by the add if ion of the line ^ nor shall any State deprive any person,t-hat the
5" Amendment due process of a Grand Jury proceeding •> binds only to the federal courts.
VJe are to construe the phrase ir\ the It - Amendment by the usus lo^uendi of be
Constitution itself. The same uuords are contained in the 5th Amendment... If declares that
'' no person shall be held... it then adds nor be deprived of life, liberty, or property,
with out the due process of law u according to the recognised canon interpretation... cue
are forbidden to assume, without clear reason to the contrary , that any part of this
most important amendment is superfluous. The natural and obvious inference is, that in
the sense of the Constitution," due process of law " was net meant or intended to include, ex
vi termini, the institution and procedure of a Grand Tury... uuhen-Vhe. same phrase was
employed in the 14- Mendment to restrain the action of the States, it was used in the same

15

Wilcox v. Washingfon
-Sense uui+b no greafer exlenf: and -fhaf if in fhe Cidopfion of fhaf amendment if has been
parf of ifs purpose fo perpefuafe fhe insf jfufion of -Hie Qnxnd Tory m ah sfafesi if would have
embodied as if did fhe 5^ /Vmendmenf, express declarafions fo fhaf efFecf.P

' tfvrfado I/O U.S. W 534-35

‘

'

bJifh all doe respect fo fhe courfs, fhis rafionale of flunking and ana/yzafion of fhe
5" and 14& Amendmenfs was heavily -flawed for several reasons , as specific words
and puncfuafion can olfimafely prove fhis. The opinion of fhe courf conceded fhaf due
process of fhe

Amendmenf aH aches fo -fhe (qrund Jury Clause, however -fhaf is nof

correof. Puncfuaf ion is josf as crifical as choice of words and fhaf all provisions in -fhe
Amendmenfs are separafed by semicolons " l . When carefully examining -fhis canon
, nor shall be compehed in any criminal case fo be a voifness againsf himself, nor be deprived
of life, liberfy, or properfy, uuifhouf due process of law J " if is very clear fhaf 4-hedue
process here is wriffen only in fhe provision fhaf prcfecls a person Prom being forced fo fesfify
againsf fhemselves, as before and affer fhis passage, are semicolons. If fhe due process was
in fended fo affach only, by fhe rules of grammar, fo fhe (qrand Jury Clause, -Hun W would
have been compounded uoifhin, separafed by a comma v\ /xas in fhe passage above, baf

fhaf is nof fhe case.
Mow -Hnere. is perhaps anofher imporfanf coord missing above fhaf would infer fhaf
fhe due process affaches fo fhe double jeopardy clause as well, and fhaf is'' person,11

1 (o

Wilcox v. Washington
When both passages are read together, grammatically it makes more sense as il reads,
*; nor shall 004 person be Subject -Tor the same offense to be -Wee pot in jeopardy of life
or limb; nor shall be compelled in any criminal case.-to be a witness against himself, nor
be deprived of life, liberty > or property, ivithoui due process of lauj; u In the latter
provision , it only contains the pronoun vN lavmsc.tf’' in the predicate, yet ft is dearly
missing the subject noun-to support -the pronoun, which would infer, as previoulg
conceded, that the double jeopardy clause'musf attach to the due process as well as it provides
the subject noun

person " that supports the pronoun in.the latter provision.

However? when' evaluating the first provis'ion,1he Cjrand Jury Clause, of the 5^
Amendment, it begins with " No person shall/, which contains its own subject noun
and finishes with a semicolon at the end of the provision, as a complete Sentence. Any
modem scholar, would concede, due to the rules of grammar, that the Grand Jury
Clause ujols separate and never intended to attach to the due process of law in the
5- Amendment, or else the provisions would have been compounded, sharing the same
subject noon, but that is not how if was written, as the first states '' no person " and
the latter two share vN nor shall any person/7
If the intention of the Framers of the bill of Rights were to incorporate the due
process of the 5 th Amendment, attaching to ail its provisions, /f would have most
17

Wilcox

v. Washington

likely been written as a airnplelesentence, asaseparate provision, much like that
written In the \t~ Amendment, at the end of the 5+Jl Amendment, separated by
semicolons, but that is not the case either. One must concede uuith logic and reason,
that the due process of the 5 - Amendment attaches only to its second and third
provisions, not the first* which Is the Grand Jury Clause.
In the opinion of the court held in Hurtado, it was stated that if the dot process
cot the 5^ Amend meat ottaches to the Gjrand Jurij, and no " 'express declarations "
/'

„ . were written in-the 14 ^ Amendment to perpetuate the institution of the Grand
Jury to all States, as written in the 5* Amendment, then the institution ofa brand
Jury must hind only to -the -federal courts. t/oouever, as previously analysed
grammatically, one must concede that the Grand Jury Clause indisputably does not
attach to the due process of the 5& Amendment, therefore much like the first,
Second, fourth, and Sixth Amendments, which are considered fundamental rights,
the Grand Jury Clause must bind -to the States respectii/ely, through the doe process
x*

•b

clause of the 14 ~ Amendment.

’

■ 1-f the same standard of evaluation is^osed toward the -Second and Third provisions
in the 5^ Amendment, that was declared in Hurtado, then those two provisions
would be bound only to the federal courts, however today those provisions bind

18

Wilcox v. Washington
to the States as. wall. Proof that the framers of the. Bill of Rights intended fhose
provisions to bind to the States, even fhooghr4hey~txre attached to the due process of

the 5' /Amendment, relies on om small phrase in1 those provisions, and that is
^ in any criminal case/7 This phrase.'distinguishes that the intention of the Framers W06
to implement these provisions in.all criminal courts as it mould have specified

otherwise, much like the Grand Jury Clause specifies that the institution must be

implemented for prosecuting coses where an. individual is accused of greater Felony offenses.
If the Grand Jury Clause does not attach to the puc Process of the 5^- Amendment
and the second and third provisions do, yet those provisions bind to the -States,then the

due process of that Amendment was never intended to restrict any provision within, from
4-he States, but rather to reiterate the essential value of the fundamental rights in
those provisions, because they were never established in English common law. However

the due process of the 5- Amendment was not needed to reiterate the value of fundamental
rights from institutions of a Grand lory, because they had already been established, tried

true and tested , through immemorial usage and experience by Cnglish Common Late7 for
nearly COO years $ before the ratification of the first ten articles cf the bill of'Rights in (7T*
Lastly, when the court held its opinion in Hurtado,as if analysed fheS^and I4‘to
Amendments and interpreted the meaning of both due processes , the court misconstrued

17

Wilcox v. WashingVon
4-Ke\r meaning, resuming iA a decision which seVa precedent denying individuals a? Vheir
fundamental righV Vo a Grand Tory proceeding in StaVe COurVs.
xX We are. Vo construe Vhe 1^ Amend menV by Vhe usus loguendi of Vhe CansViVuVion
iVse.lf.The. same coords are con+ained in Vhe 5^ Amendmenf... according Vo Vhe
recognised canon inVerpreV aVion • « • uue are-forbidden Vo assume., uuiVhouf dear reason
Vo Vhe contrary • « • due process of law uoas noV mean-V Vo include, ex Vi Vermini, +he inzlilah'on
and procedure of a Grand Jury... uohen Vhe same phrase was employed in -Hie 14thAmendment Vo resVrain -Vhe ad ion of-Vhe SlaVes... if in VheadopVion of fhaf Amendment• if has been parVof iis purpose Vo _pe.rpeVua.Vc Vhe insViVoVion of -Vhe Grand Jury in all Vhe
SVaVes, if uoould have embodied, as..did -Vhe 5^ AmendmenVexpress declaraVtonsk>
■

•

.

'*

9

'

-

•'

*

’*?•

* VhaV effect." Hurtado HO (/■$• a/ 53*1-35
‘

i

.

*

*

Jn accordance Vo Vhe R* Amegdmenl of1 Vhe Bill of Rights, as if reads " The

enumeraVion in Vhe ConsViVufion of cerfain righ-ts, shall nof be consVrued Vo, denu
.* *

>

'•

.

.

.•

or disparage oVhers reVained by -Vhe people," iV clearly States VhaV Vhe (UsV of laws)
n

in Vhe ConsViVufion, of .(fixed, seVVled) righVs, shall noV be (inVerpreVed) Vo (deprive)
or (lessen, degrade) oVhers (possessed, reserved) by Vhe people.
The opinion of Vhe eourV in HorVado, as sVaVed above, when analysing Vhe due
processes of Vhe 5^ and 14 ~ AmendmenVs, holds Vhe phrase 'x uue are Vo construe,^ iV

30

Wilcox v. Washington
then -PoIIouj-s by stating that both Amendments con-kin doe process and because the 5fc
Amendment con-tains express declarations/'’ to " perpetuate -the institution of a Qrand Jury/
yet the 14 ^ Amendment does not, then the (frand Jury must only apply to -federal
courts. However, uuhen considering the grammatical evaluation of the 5& Amendment,
previously presented to the Court in this document, in Contrast to the opinion of the court
tr\ Hurtado, one must concede that the court ultimately misinterpreted the intention of
due process in the.5^ Amendment and the provisions within, it attaches to, thus resulting
fn the deprivation of the fundamental right of a Q ran cl Jury proceeding, established and
settled by immemorial usage of English Common Law, inherent to the citizens of
all United States,therefore those individuals uuere deprived of the guarantee set forth
in the H ^ Amendment, unequivocally as well.
Washington 5 fate used the. standard set in Hurtado, five'years prior to the
adoption of its Constitution in I884?, to construct its laws written in Article I
.section <35 and 36 , which deprives Its citizens the guaranteed -fundamental
right of a 6rand Jury proceeding. The Stale relies on the Hurtado precedent and
Still considers if good law fo support the prosecution of higher-felony crimes by
information alone, without any equivalent preliminary proceeding to fhat of the Qrand
Jury, however that mode of proceeding is contrary fo the standard set forth in

31

Wilcox v. Washing-ton
Hurtado, as itreguires a preliminary proceeding.
The ruling in Hurtado

People of California, shall not be despotic as sx These.

laW cases establish that notwithstanding I he sweeping character of the language in the
Hurtado case, the role laid down is not uuithouf exceptions.The rule is an aid ho
Construction, and in some Cases mag be conclusive, but it most yield ho more, compelling
considerafions whenever such considerations exist. The fact that the right involved is of
such a character that if cannot be denied without violating those '' fundamental principles
of liberty and justice which lie at the base of all our civil and political institutions."
Poujd/ v. A lab am d 77 LEO 156,087 US. a! £>7 (citing Herbert 1/ Louisiana
070 U.S. 310,316, 7/ LED 070,370, 48 ALR HOD, 47 Set. 103)
The final decision in Hurtado concludes that " We are unable to say that the substitution
for a presentment or indictmen/ of a Grand Jury proceeding by information ... b not due
process of lauu," Xd ad538 and equ'ai/y 4hey cue-re unable /o prove that if uvas in tact,
due process as cue//, uuhich brings (his ruling info question, as the prosecution of felony
crimes by information must provide a grcatervalue of fundamental right than that
guaranteed by a Grand Jury proceeding, or else it is deemed contrary lauu as " any
Thing in the Constitution or laa>s of any -State to the contrary notwithstanding , "
uuhich is unequivocally, without due process of I aw.
Xn a relatively recend case, the Supreme Court overturned a nearly century old case

23

Wilcox v. Washing-fon
Apodaca v. Oregon 406 (Jt*S. 404, ujhich allowed fate accused fa be com/idad by a hao-fair4
majority jury verdi cf, however -the courf ruled fhaf anything less than Q unanimous vcrc/id is
UflConsfifufionoJ, and infhis case Justice Alilo gave this opinion! "Even now, oor coses do naf hold
Ibai every provision of fhe Bill of Rights applies in -the same way to fhe federal govemmen* and

the Uni-fed .Sfafes. A nofable exception is -Hie Grand Jury Clause of fhe 5* Amendment-, a provision
that like- fbe G

Amendment jury -fried righf, reflects fhe importance fhaf -fhe founding general ion

attached fo jury as safeguards against oppression. Xn tturtado v. People of California 110
U.S. 516, 538 (|884)} -fhe courf held fhaf fhe (qrand Jury Clause does not bind fhe States and that

fhey may substitute preliminary hearing a+ which fhe decision was based on reasoning fhaf is no! easy

fo distinguish from Jusfiee Powells opinion in Apodaca v. Oregon 406 U«S.404. Hurtado v.
California remains goad lauu and is critically imporfanf fo 38 sfafes fhaf allow defendants
fa be prosec ufed for a felony without a Grand Jury indictment. Xf we took, the same

approach fo fhe Hurtado question fhaf fhe majority lakes in fhis ease, fhe holding
in fhaf case could be Called info question." HamoS v. Louisiana # I8~5434, 139
Set 1318,203 L Ed 2d 563120/9 U.S. LEXIS 1833

C. Differences befuueen federal and 5+a+e Constitutional provisions and fhe evaluation
of -fundamental righfs
Washington -State holds its own standard sef in Shade v. Gturiujal/ 106 VJn 2d
54, 54,730 P3d <308(i486), which recommends six nonexclusive neutral criferia

23

Wilcox v. Washington
W determining when and how the Washington .State Constitution provides di'ffertn+

protection than the lJniitd -States Constitution guarantees, listed as follows:
Cl.) The texts
(5.) Significant differences in parallel provisions
(3.) State Constitution and Common Law history
(4.) Preexisting State laio
(5.) Structural differences between State and Federal Constitutions
(6.) Matters of particular State irrterest

This standard shall he used to zvaluah Article X section 35 and 36 of the
*.

Washington State Constitution, in comparison to the Grand Jury Clause cf the 5^ /WndnW
in the United States Constitution, to dtlzrmini whether or not the State lows provide
««

different or less protection to its citizens.
1.) Article X section 35
^ Offenses heretofore required-to be prosecuted by mdicime.nf may he proseevkd
rV

by information, or by indictroeof,^as shaltbe prescribed by law /;
*

-

Article X section 36
sx N6 Grand-Jury shall be drawn or summoned in any county? except the superior
■ - judge ftiereof sha\\ order’
•

%.

s

U

*

5a /|mer]dmer!f
xx Mo person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment oP a Girand Jury

J/

3.) When analyzing the significant differences between Article X section 35 and
36 in comparison to the Grand Jury Clause of the 5^ Amendment, the provision in

34

Wilcox v. Washington
•the. B1*-Amendment guarantees and requires -felony crimes to be prosecuted upon presentment
or indictment of a Grand Jury , uuhereos Article X sect-ion S6 -forecloses on counties to draw
or have a Grand Jury on standby , except uuhen a superior court Judge orders, and Article I
section <55 states -felony crimes that uuere required to be prosecuted, up until (heretofore)
this laoo, by indictment of a Grand Jury , may be prosecuted by information or indictment.
Therefore the federal Constitution guarantees felony crimes to be prosecuted by a Grand Jury
indictment, cohere as the 5+ate Constitution forecloses on summoning a Grand Jury uuHh excepti ons
and felony crimes may be prosecuted by information or indictment, which leaves information
as the primary form of prosecution, (nothing guarantees a preliminary hearing)
3.) The fundamental right guaranteed by a Grand Jury proceeding, ouriften in the 5^
Amendmenf 1 ouas established over 800 years aye in English Common Laoo and is still
used today in Anglo - American jurisprudence (History cited pgs. 8 - I3 ), Washington
as a Territory,until ratification.of its Constitution in 18^1, still used this modeof
*'

*

.

* .^

*

proceeding , even for seven years after the precedent set in the ruling of Hurtado v.
California. When Washington established its Constitution, /f completely disposed of
its Grand Jury proceeding in State courts and substituted that mode of proceeding
uj'ith ^ information filed by a proseeufing attorney n as uuriften in RCW 10.37.105.
GO Washington State has primarily prosecuted felony crimes by information

55

Wilcox v. Washington
alone., uuithouf the equivalent of a preliminary b oaring to +hal of a (jrand Jury, since.
the ratification of Ws State Constitution.
5.) This section is same, as U-1 as -the. 5^ Me.ndme.rrf guarantees a Grand Jury
proceeding for prosecuting felony crimes where the -Stale does not.
♦

.

/

*

6.) The main interest of the State during construction of Arfide 1 Section 33 and 26
of its ^Constitution, due to the facf that majority of [fs population was rural af the time,
*•

-

^

*V.

.

*

boas to dispose of empaneling a Grand Jury by Substituting indictment prosecufions with
*■»

s

"*

"*

informal'!on Vo expedite State criminal adjudications.
*

^

v

.

.

^

•

XI is indisputable that Washington Stale Lauj, when considering Ihe analyealion set in
*

•

%

j

«■

Ihe Gumoall standard staled above, does nof provide Ihe same guarantee towards Ihe
Grand Jury proceeding'as was written in Ihe 5^ Amendment 100 years prior ho
ratification of Ihe Stale Constitution • It must now be determined whether prosecuting
•felony crimes by information provides individuals greater protection than thosefundamental
rights guaranteed by a Grand Jury proceeding already established in English Common
Lauu many centuries ago.
" The Duncan standard was designed to determine whether rights fundamental h the
American scheme of justice, are necessary to an Anglo- American regime of ordered
liberty. This standard has four factors which are weighed to
26

whether a

Wilcox v. Washingfon
Bill of Rigbf-S provision uuarrarvfs incorpora+ion +o ihe 'v Due Process Clause"at 4he

\i\

Amendmenf of fhe Unifed States Consfifufion."

(lC)The righfs Wisforical underpinning
(<2.) S4afes milial regard for Ihe righ4 in i4s Consfifufion
(3.) Recenf frends and popular vieuj regarding +he riglaf(4.) Purpose served by +he righ4

Slate k Sityts /68 !a/h Dd 3? 7& (3009) (cdmcj Duncan v. Louisiana 39/ U.S. 145,
HI, 8&Sd. tm, 30 LED 3d 49/ &<&))

The Grand Jury Clause of +he 5 th- Ame.nctme.nl mustnouj he appliedto Ihe Duncan
standard lo evaluate whether or nal Unis provision warrants Incorporation to the due process
of Ihe Id * Amendment.
1.) As previously sfafed in 4he Pis-fory of Phe (7rand Jury , pages 8

15 f fh/s mode of

proceeding uoas esfabiishedin English Common Lauj over Q00 years ago, which through
immemorial usage and experience f it has proven to be one of the fundamental principles

in Anglo-AmericanJurisprudence that ensures and safeguards the liberties,, inherent to national
citizens, ensued upon Phe rafificofion of Die Bill of Righfs In the United States‘Constitution

in ll^l, and is still implemented today.
3.) Due to the precedent set by Hurtado v. California in 1864, Washington State substitutes
44ie prosecofion of -felony crimes bg indictment of a Grand Jury aiith information filed by

a prosecuting attorney.

n

Wilcox v. Washington
3.) Over the last few years, nationwide iherz has been an e.xpon&.n-fial increase of dfizens,
•Prom peaceful prafes+s +o riots and civil upheaval, demanding that all of thar Bill of Bights

be protected and restored, as the majority , voice many concerns of States encroaching and
Skipping away those rights conferred to them by fhc United States Constitution. This concern

has been brought up numerous fimes through mexjor news networks by not Just average
citiz.ens, hut-government officials as ujell including the President of the United States,

Donald Trump*
4.) A (qrand Jury proceeding serves as a checks and balances procedurefo proied- fhtaccused
from hasty, malicious prosecutions, as well as a superior fact-finding process to determine if

probable cause exists, including 4he ability, with aid of counsel, to confront and crossexamine the witnesses and accuserCs), safeguarding the innocentfrom subjugation of
public ridicule,'unless by unanimous verdict of Uof his peers, prior to -trial*
After weighing the four factors, established ujhile evaluating the Qrand Jury Clause of
the

Amendment with the Duncan standard, which was a standard set by the United

•States Supreme Court in the case of Duncan v. Louisiana to determine whether or not

the provision guaranteeing atrial by jury, written in the

Amendment, was a

fundamental right that binds to the due process of the 14*" Amendment, one must concede
that equallg as the holding of Duncan arid English Common Law considered the right

38

Wilcox v. WashiriCjfon
ho a fried by jury as fondamenhal ho fhose principle of ordered liberfy in Anglo-American
jurisprudence, 4he (jrand Jury proceeding is a Pjndamenfal righf 4ha+ should bind to4V\eSlate
as well.
Nothing wriffen in fhe (Jnifed Sfafes Consfifofion or any provision of i4s Bill of RigbB
allows 4he prosecufion of felony crimes by informa+ion, as wins esfablished in English
Common Law, which is wrihfen in USC |& § 555 , fha4 prpsecuhing crimes by
informa4ion is reserved Cor misdemeanors only, fowever, even fhough 4-ha4+his mode of
proceeding is nowhere wri+feo in any provision , if applied fo 4he Same shandard se4 in
Duncan j if would ulfima4ely -Pail and prove no44o be a fundcmnenhal righf as
*

explains

Oft#

■

Lord Coke

*'

frie*1 law of 4he land' as expressed in fhe Magna Charfa, was infended

due process of law, 4ha4 is, by indicfminf and presen-fmenf of good and lawful men.
And'furhher, if is sfafed, on 4he aofhorify of Black shone, hhah informafions 6f every
kind are confined by fhe Consfifufional law 4o misdemeanors only.

Com ~510)

JJuJado /. People of CoJi-forriia. ©?6 IEDJ5J) f/O (/.d- 53J (cih'ng Jones v.
Tjobbins 8 Oray 339)

3i9

Wilcox V. Washing-ton

REASONS FOR GRANTING THIS PETITION
I his petition-for Extraordinary VJrit has been brought forth upon the discretionary
RNieu) ofthis court, invoking its original jurisdiction through Article IE section 9 of
the United S+ates Constitution, uuifh aid ct Its appellate Jurisdiction, to evaluate the
Questions and all facts presented in this writ, and determine uoith scrutiny, whether or
not the Girand. Jury provision of the 5~ Amendment.shall attach to the due process clause
of the 14**■ Amendment of the United States Constitution. The ruling of Hurtado v. People of
California 98 LED 932 , MO U.S. 516, 538, is also being called into question, when considering the
Same cupproach of questioning taken by the majority in Ramos v. Louisiana tt-18- 599A 139 Set.
131&, 903 Ltd 9d 56319019 u.S. LfXiS 1833, as the precedent set by Hurtado v, California
established the nea> standard adopted into Washington State. Law upon ratificaHon of r-fs Constitution,
shaping the construction of Article X section 95 and 9 (o , which are the laws being challenged
in this petition, that deny its citizens the guarantee of the due process of a grand jury proceeding
established in Anglo-American jurisprudence. “Due to the complexity of the exceptional circumstances
that exist uoithln the questions of this uurit and the Constituf/onal laips being Challenged, of the
State of Washington as the adverse party in this petition, the United States Supreme Courf
holds the only Jurisdiction as acting authority to review such Considerations of momentous

30

Wilcox v. Washington
concerns mvotv-mg the deprlvahionof fundamental principles of liberty and justice o->hfch lie at the
base of all our civil and political institutions.
In respect to current events, as well as modern views andi concerns of the public, regarding the
encroachment by States upon those principles deemed so fundamental that safeguard the rights of its cihims
to ensure, ordered liberty, embedded in the Bill of Rights of the United States Constitution, through actions of
peaceful protest to civil upheaval, retrospectively speaking, Society is repeating apattem which uuasa
.

.

.

Q

•.

“*

precursor that led ho the ratification of the l4A Amendment in I8G8. However this trend seems to be spiraling
out of control as the society of today appear to be more animus in fear of oppression as well as the
Suppression and dissolution of intrinsic rights due to the perceived stigma given ho free governments
by their arbitrary actions. Balance within our nation relies upon the cohesive nature of all governments
ho cognitively transcend beyond the limitations presumptuously established by oppositions of
systematic process and reinstate such rights inherent+o citizens of all United States guaranteed
by the Bill of Bights of the Unihd States Constitution.
NV We hold these truths to be self-evidenh, that all men are created equal, that they are endowed
by their creator with certain unalienable rights, that among these are life, liberty and the
pursuit of happiness. That to secure these rights, governments are instituted among men,
deriving their just powers from the consent of the governed. That whenever any form of government
becomes destructive of these ends, it is the right of the people to alter or abolish it, and to

31

Wilcox v. Washington
institute mu qove.rnme.n4 , laying its foundation on Such principles and organising iVs powers in such form,
as Vo 4hm shall seem mos4 likely 4o effect their safely and happiness... bol tohen a long-train o? abuses
and usurpations, pursuing invariably 4he same object evinces a design 4o reduce -them under absolute
despotism, His 4-heir right, if is fheir dufy, fo throw off such government, and fo provide new guards
for fheir future security.^

Much like fhe people that broke away from fyranny and formed our nafion, inscribing into fhe
Declaration of Independence, fhe pleas cf fheir endeavor fo achieve a supreme scheme of justice fo
Secure, certain righfs fhaf guarantee life, liberty and fhe pursuif of happiness, similarly Americans
today, share some of fhe same sfruggles fnaf inspired such a subsfanfial change. Our nafion is
undoubtedly broken, bof nof beyond repair, as many significanf friurmphs, are fhe resulf of great
endurance and fhe ujill fo persevere,through unfold Suffrage. The fractures ofsociefy can
only be mended by fhe mortice applied by government institutions through American jurisprudence,
as if only fakes one jusf decision to create great change, immortal through time.
By the pleas of this petition, as scribed by one man, for the voices of many, and
-for future generations to come, it is respectfully requested that this court, as guardians
of those rights rooted in the Bill of Rights, and fo prevent a mi scar ri age of justice from
occuring further, grant this petition and restore those fundamental rights guaranteed
by Cirand Jury proceedings, inherent to citizens in the State of Washington.

33

W/leoX v. Washington

!
t

CONCLUSION

This petition for an Extraordinary Wrrt of Mandamus and/or
Prohibition should be granted.
C*

i

Respectfully submitted

cSdth^fbJihM
L7

a

Date: 17Aday of September. 3030

33

Appendix B
Declaration of Explanation fo Relevance of ibis PeHb'on

This Petition for Extraordinary Writ of Mandamus and/or Prohibrfion
is an original criminal /civil action brought- forfh in this Court undtr the
jurisdiction of Article HI section 2 of the United States Constitution.'This
petition 15 not a challenge at petitioners judgement and sentence,or conviction,
asking for diserttioaarg review from this court, therefore it does not rmt ftisL
CritericL to fcn_ filed as a Writ cf Cerfiori or tlabeas Corpus, as the relief sought
is not release from confinement ."This petition is brought forth to this court agamst
the State of Washington, the Qouernor of the State, Jag Xnslee , and Robert WFerguson, -the Attorney CjeneroJ of the State, as well, as adverse parties in this
petition , challenging Article X section 25 and p.6 of Washington State
Constitution.
Petitioner is respectfully reguesting discretionary revieuo from this court upon
at I questions and faof brought forth in this petition, wifh aid of ffj appe/iafe
jurisdiction, reviewing tb. dotted States Supreme Court decision of Hurtado
V. People of California 26 LED 25a , 110 US. 5|fc, 55H-38 (l8Sh) (Appendix A).
This case is relevant to the challenge of Washington State law as Washington

61

Stale, holds the paccde.nl set in Hurtado as valid law fo support tta subsfitaion
of ifa preliminary proceeding of

cl

grouadjoag with informal ion f tied by a.

prosecuting attorney, 06 4-his case, set the standard which m-flocnccd the conslruebon
of Article X section 35 and 3d of 4hi \AJashingfon SWt Constitution, seven
years prior to Its ratification in l&tl. Therefore the laws being challenged intbis
•petition cannot be reviewed ujilhooi appellate review of Hurfado -v. Pfople of
California.
The exceptional circumstances fhaf per4ain 4o 4h/s pefi-ficn are as &llous‘,
fhis Vta of Mandamus and/or Prahibii/on is a mixed criminal /civil ptWton
challenging the laws of Washington State solely. Washington State tux'll not
consider challenges of these laws unless the decision of Hurfado v. People of
California is over-fumed, as ttic State considers K valid law, -fherefore -fhis petition,
cannof ta-Ciled in any stale court for fair adjudication or dlscref/oranj review.
The Sitae Icaos being challenged in fhis pe-Mioo are proven do be enforced without
due process of law, as a. Stale cannof creak lauj$ fhof deprive tfs cittaens of
their fundamental rights conferred by thi. United States Constitution. Prosecuting
felonies bg information aloruumost provide Its ettirens greater protection, and or
a higher value of fundamental rights than that guaranteed by a grand Jury

proceeding as was determioed by the Duncan Standard in this pdition) or else it
is co ntrary lao LuHhoof the dot process of law*.
Since this petition dots Oof , in whole i ft ihju criteria -for a f1985 5oif in
district court, or habeas corpus it Cannot be filed in the district Court» The only
option -for a petition of this nature, is to invoice- the United 'Stocks Supreme
Courts originod jurisdiction under Ar-fic(e HT sac-fion 9. of |(u Unfed States
*

*

Constitution , through an Extraordinary Wri4 of Mandamus and /or Prohibition.
Petitioner is respectfully rerp/estiag the. Courf ? throogh (is appdla.it. jurisdiction ,
to ft\liuu tfa decision erf tDrfodo e People of California with flat questions and
fads presented in th/s petition , as questions of momentous concerns have
dosed pertaining to due. process and the validify of the previous Supreme
Court didst on b-f Hurtado. The relief sought in this Wn-f9 if the court
agrees to the facts relevant and Hu pasture of this petition} is fa Mandate
the Stott cf Washington to change its tows and guarantee a granefgury proceeding
in all felong state court adjudications, and or prohibit -the State to immed/afe/y
stop enforcing laai that allows individuals with alleged filong charges-fa bi
prosecuted by information alonjl, filed Eg prosecuting atfarrmjs .'Tht ton fed
States Suprcmiu Court holds-the only authority, through tfa original and

B3

T

app^Jlflcte-Junsdid-ion -fo gra.nl -fhfe ptfi-f-ion and -fta relief soo^hf agains4a
5-(a4e as an adorns park)*

y

\

\

